IN THE

Supreme Court of the United States
JAMES ERIK GODIKSEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39, the petitioner, JAMES ERIK GODIKSEN, moves to
file the attached petition for certiorari without prepayment of costs and to proceed in forma
pauperis. The petitioner was represented in the United States District Court for the District of
Connecticut and in the United States Court of Appeals for the Second Circuit by counsel
appointed pursuant to the Criminal Justice Act, 18 U.S.C. ยง 3006A. His financial condition has
not changed materially.

Respectfully submitted,
THE PETITIONER,
James Erik Godiksen

Dated: June 23, 2021
Tracy Haye.
Assistant " dcral Defender
265 Church Street, Suite 702
New Haven, CT 06510
Phone: 203"498"4200
Fax: 203"498"4207
Email: Tracy_Hayes@fd.org

